Case: 20-40559

Document: 00515912470

Page: 1

Date Filed: 06/24/2021

r•

for tfje jftftlj Circuit
United States Court of Appeals
Fifth Circuit

FILED

No. 20-40559

June 24, 2021
Lyle W. Cayce_ _
Clerk

T

Carl'Anthony Wilson,*

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent—Appellee.

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 6:18-CV-492

ORDER:
Carl Anthony Wilson, Texas prisoner # 2045989, moves for a
certificate of appealability (COA) from the denial of his § 2254 petition
challenging his conviction of felony DWI. In his § 2254 petition, Wilson
alleged that (1) he was subjected to an illegal search and seizure; (2) his due
process rights were violated; (3) his trial and appellate counsel each rendered
ineffective assistance; (4) his Fourteenth Amendment rights were violated;
and (5) he is actually innocent. The district court denied relief, concluding
• that claims two, three, and four were procedurally barred as unexhausted,

Case: 20-40559

Document: 00515912470

Page: 2

Date Filed: 06/24/2021

No. 20-40559

and claims one and five were not cognizable on federal habeas review. Wilson
argues that the district court erred in its analysis.
To obtain a COA, Wilson must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Slack v. McDaniel,
529 U.S. 473, 483 (2000). He will satisfy this standard “by demonstrating
that jurists of reason could disagree with the district court ’ s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003). When, as is the case here, the district
dismissed some of his claims on procedural grounds, Wilson must also show
“that jurists of reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right and that jurists of reason
would find it debatable whether the district court was correct in its
procedural ruling. ” Slack, 529 U.S. at 484.
Because Wilson has not made the requisite showing, his COA motion
is DENIED.

Stuart Kyle Duncan
United States Circuit Judge

2

r-'s

-4

United States Court ofAppeals
----- FirnrciRCWf-----

OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

August 04, 2021
#2045989
Mr'. Carl Anthony Wilson
Jester 3 Unit
3 Jester Road
Richmond, TX 77406

No. 20-40559

Wilson v. Lumpkin
USDC No. 6:18-CV-492

Dear Mr. Wilson,
We
received
your
"Motion
Requesting
a
Certificate
of
Appealability (COA_ together with "Brief" in support which
included attachments thereto, but referred to no particular
district court or appellate case number,
To the extent your
documents were intended for filing in this appeal, we take no
action. On June 24, 2021, the court denied you motion for COA
and the mandate in this appeal issued on July 16, 2021 and the
appeal is now closed.
The court having
already denied COA,
will not rule further on a subsequent request for COA.
Sincerely,
LYLE W. CAYCE, Clerk

By:
Donna L. Mendez, Deputy Clerk
504-310-7677
«

cc:

'

i

Ms. Jennifer Wissinger

NO. 12-16-00014-CR
IN THE COURT OF APPEALS
TWELFTH COURT OF APPEALS DISTRICT
TYLER, TEXAS
CARL ANTHONY WILSON,
APPELLANT

§

APPEAL FROM THE 114TH

V.

§

JUDICIAL DISTRICT COURT

THE STA TE OF TEXAS,
APPELLEE

§

SMITH COUNTY, TEXAS

MEMORANDUM OPINION
Carl Anthony Wilson appeals from his conviction for driving while intoxicated. In one
issue, he contends that he received ineffective assistance of counsel at trial. We affirm.

Background
Deputy Jason Railsback with the Smith County Sheriffs Office stopped Appellant for
speeding. He testified that Appellant’s vehicle smelled of alcohol, his speech was slurred, he had
difficulty forming concise sentences, he appeared nervous, and he had glassy, bloodshot eyes.
Railsback conducted field sobriety tests, which indicated that Appellant was intoxicated. A
blood test revealed that Appellant’s blood alcohol ratio was two times the legal limit, at 0.153.
Appellant pleaded “not guilty” to felony driving while intoxicated. The jury found Appellant
guilty and assessed punishment of imprisonment for sixty years.
INEFFECTIVE ASSISTANCE

In his sole issue, Appellant contends that trial counsel rendered ineffective assistance by
failing to object to the State’s closing argument during the punishment phase of trial.
Standard of Review and Applicable Law
An appellant complaining of ineffective assistance must satisfy a two-pronged test See
Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d 674 (1984); see also

Page 36

Case 6:18-cv-00492-RAS-JDL Document 25 Filed 06/09/20 Page 1 of 2 PagelD #: 953

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CARL ANTHONY WILSON, #2045989

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cv492

ORDER OF DISMISSAL
Petitioner Carl Anthony Wilson, an inmate confined in the Texas prison system.
proceeding pro se, filed the above-styled and numbered petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 2254 challenging his 2016 Smith County conviction for felony driving
while intoxicated. The petition was referred to United States Magistrate Judge John D. Love, who
issued a Report and Recommendation concluding that the petition for a writ of habeas corpus
should be denied. (Dkt. #23). Mr. Wilson has filed objections. (Dkt. #24).
The Report of the Magistrate Judge, which contains his proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and
having made a de novo review of the objections raised by Mr. Wilson to the Report, the court is of
the opinion that the findings and conclusions of the Magistrate Judge are correct and the objections
of Mr. Wilson are without merit. Therefore, the court hereby adopts the findings and conclusions
of the Magistrate Judge as the findings and conclusions of the court. It is accordingly

1

Case 6:18-cv-00492-RAS-JDL Document 25 Filed 06/09/20 Page 2 of 2 PagelD #: 954

\

ORDERED that the Report and Recommendation (Dkt. #23) is ADOPTED. It is further
ORDERED that the petition for a writ of habeas corpus is DENIED and the case is
DISMISSED with prejudice. A certificate of appealability is DENIED. It is finally
ORDERED that all motions not previously ruled on are hereby DENIED.
SIGNED this the 9th day of June, 2020.
(\

I

M

RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

2

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 1 of 13 PagelD #: 930

I'N'TH'E'U'NITED'STATE^-DISTRICT'CO'O'RT'
FOR THE EASTERN DISTRICT OF TEXAS
TYLER DIVISION
CARL ANTHONY WILSON, #2045989

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 6:18cv492

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Carl Anthony Wilson, an inmate confined in the Texas prison system,
proceeding pro se, filed this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The
petition was referred for findings of fact, conclusions of law, and recommendations for the
disposition of the case.
Procedural History
Wilson is challenging his Smith County conviction for driving while intoxicated in
criminal cause no. 114-0948-15 out of the 114th District Court of Smith County, Texas. SHCR1
at 6-7. Wilson was charged by indictment with felony DWI, with two previous felony convictions
alleged for enhancement of punishment. SHCR at 4. A jury found Wilson guilty as charged and
assessed punishment at sixty-years’ imprisonment. SHCR at 6-7.

i

“C.R.” is the clerk’s record of pleadings and documents filed with the trial court. Additionally, “R.R.” is the
reporter’s record of transcribed testimony and exhibits from trial, “SX-” or “DX-” are the enumerated exhibits of the
State or the Defendant from trial, and “SHCR” is the state habeas clerk’s record, and “Supp. SHCR” is the
supplemental state habeas clerk’s record. Citations are preceded by volume number and followed by page or exhibit
number, where applicable. All of the state court records are contained in docket entry number 20.
1

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 2 of 13 PagelD #: 931

The Twelfth Court of Appeals of Texas affirmed Wilson’s conviction. Wilson v. State, No.
12-16-00014-CR, 2016 WL 5118327 (Tex. App.—Tyler Sep. 12, 2016, pet. refd). Wilson’s
petition for discretionary review (PDR) was refused by the Texas Court of Criminal Appeals
(TCCA). Wilson v. State, No. PD-1263-16 (Tex. Crim. App. 2017).
Wilson’s state application for writ of habeas corpus challenging his conviction was denied
by the TCCA without written order on the findings of the trial court without a hearing. SHCR at
9-27, Action Taken Sheet.
The present petition was filed on September 13, 2018,2 and received by the Court on
September 18, 2018. (Dkt. #1). Wilson brings the following claims for relief:
1.

He was subjected to an illegal search and seizure because the police took his blood
without his consent, a search warrant or a court order, and searched his car also without
consent, a search warrant, or a court order;

2.

The prosecutor and the police violated his due process rights during the investigation
and the prosecutor placed a witness, Ronald Holt, on the stand who lied about verifying
a search warrant;

3.

His trial counsel, Melvin Thompson, was ineffective for failing to file a motion to
suppress his blood test, and his appellate counsel, Austin Reeve Jackson, was
ineffective for failing to file a motion to suppress in the direct appeal;

4.

His Fourteenth Amendment rights were violated because the lab tech testified that the
blood tests revealed four different sets of numbers from the testing the same blood;
and,

5.

He asserts that he is actually innocent. He states that he has become a productive
member of society and that he has worked hard every day for his family. He did not
deserve to receive sixty-years.

2 See Spotville v. Cain, 149 F.3d 374, 378 (5th Cir.1998) (a prisoner’s pro se federal habeas petition is deemed filed
when the inmate delivers the papers to prison authorities for mailing).
2

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 3 of 13 PagelD #: 932

orTFebruary 2'6~ '2019. Wilson filed a reply~(DktT#22) on
March 11, 2019.
Standard of Review
The role of federal courts in reviewing habeas corpus petitions by prisoners in state custody
is exceedingly narrow. A person seeking federal habeas corpus review must assert a violation of a
federal constitutional right. Lowery v. Collins, 988 F.2d 1364,1367 (5th Cir. 1993). Federal habeas
corpus relief will not issue to correct errors of state constitutional, statutory, or procedural law,
unless a federal issue is also present. Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); West v.
Johnson, 92 F.3d 1385,1404 (5th Cir. 1996). In the course of reviewing state proceedings, a federal
court does “not sit as a super state supreme court to review error under state law.” Wood v.
Quarterman, 503 F.3d 408,414 (5th Cir. 2007) (citations omitted); Porter v. Estelle, 709 F.2d 944,
957 (5th Cir. 1983).
The petition was filed in 2018; thus, review is governed by the Antiterrorism and Effective
Death Penalty Act (“AEDPA”), See Lindh v. Murphy, 521 U.S. 320, 327 (1997). Under the
AEDPA, a petitioner who is in custody “pursuant to the judgment of a State court” is not entitled
to federal habeas corpus relief with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim:
(1)

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the
Supreme Court of the United States; or

(2)

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceedings.

28 U.S.C. § 2254(d). “By its terms § 2254 bars re-litigation of any claim ‘adjudicated on the merits’
in state court, subject only to the exceptions in §§ 2254(d)(1) and (d)(2).” Harrington v. Richter,
3

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 4 of 13 PagelD #: 933

562 U.S. 86, 98 (2011). The AEDPA imposes a “highly deferential standard for evaluating statecourt rulings and demands that state-court decisions be given the benefit of the doubt.” Renico v.
Lett, 559 U.S. 766, 773 (2010) (citation and internal quotation marks omitted).
With respect to the first provision, a “state court decision is ‘contrary to’ clearly established
federal law if (1) the state court ‘applies a rule that contradicts the governing law’ announced in
Supreme Court cases, or (2) the state court decides a case differently than the Supreme Court did
on a set of materially indistinguishable facts.” Nelson v. Quarterman, 472 F.3d 287, 292 (5th Cir.
2006) (en banc) (quoting Mitchell v. Esparza, 540 U.S. 12, 15-16 (2003)). “[RJeview under
§ 2254(d)(1) is limited to the record that was before the state court that adjudicated the claim on
the merits ” Cullen v. Pinholster, 563 U.S. 170,180-81 (2011). As such, “evidence later introduced
in federal court is irrelevant.” Id. at 184. “The same rule necessarily applies to a federal court’s
review of purely factual determinations under § 2254(d)(2), as all nine Justices acknowledged.”
Blue v. Thaler, 665 F.3d 647, 656 (5th Cir. 2011).
With respect to section 2254(d)(2), a Texas court’s factual findings are presumed to be
sound unless a petitioner rebuts the “presumption of correctness by clear and convincing
evidence.” Miller-El v. Dretke, 545 U.S. 231,240 (2005) (citing section 2254(e)(1)). The “standard
is demanding but not insatiable;... [djeference does not by definition preclude relief.” Id. (citation
and internal quotation marks omitted). More recently, the Supreme Court held that a “state court’s
determination that a claim lacks merit precludes federal habeas relief so long as ‘fairminded jurists
could disagree’ on the correctness of the state court’s decision.” Richter, 562 U.S. at 101 (citation
omitted). The Supreme Court has explained that the provisions of the AEDPA “modified a federal
habeas court’s role in reviewing state prisoner applications in order to prevent federal habeas

4

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 5 of 13 Page!D #: 934

■‘iuLiialh’-ati'd"lO ensure"
law.” Bell v. Cone, 535 U.S. 685, 693 (2002). Federal habeas corpus relief is not available just
because a state court decision may have been incorrect; instead, a petitioner must show that a state
court decision was unreasonable. Id. at 694.
Discussion and Analysis
1. Exhaustion and Procedural Default^—Claims 2. 3. and 4
Wilson presents five main claims for relief in his habeas petition. The Director contends
that Claims 2, 3, and 4 are unexhausted and procedurally barred. (Dkt. #21, pp. 4-10). In Claims
2, 3, and 4, Wilson alleges that (Claim 2) one of the prosecutor’s witnesses lied on the stand;
(Claim 3) he was provided ineffective assistance of counsel by his trial counsel and appellate
counsel because they each failed to file a motion to suppress the blood draw; and (Claim 4) the lab
tech’s testimony violated the Equal Protection Clause. These claims are procedurally barred.
State prisoners bringing petitions for a writ of habeas corpus are required to exhaust their
state remedies before proceeding to federal court unless “there is an absence of available State
corrective process” or “circumstances exist that render such process ineffective to protect the rights
of the applicant.” 28 U.S.C. § 2254(b)(1). In order to exhaust properly, a state prisoner must “fairly
present” all of his claims to the state court. Picard v. Connor, 404 U.S. 270, 275 (1971). In Texas,
all claims must be presented to and ruled upon the merits by the Texas Court of Criminal Appeals.
Richardson v. Procunier, 762 F.2d 429, 432 (5th Cir. 1985). When a petition includes claims that
have been exhausted along with claims that have not been exhausted, it is called a “mixed petition,”
and historically federal courts in Texas have dismissed the entire petition for failure to exhaust.
See, e.g., Galtieri v. Wainwright, 582 F.2d 348, 355 (5th Cir. 1978) (enbanc).

5

• V

L
it

1

Case 6:18-CV-00492-RAS-JDL Document 23 Filed 04/21/20 Page 8 of 13 PagelD #: 937

The Director’s argument that Wilson’s grounds for relief (Claims 2, 3, and 4) are
unexhausted and procedurally barred potentially triggers the procedural default doctrine that was
announced by the Supreme Court in Coleman v. Thompson, 501 U.S. 722 (1991). The Court
explained the doctrine as follows:
In all cases in which a state prisoner has defaulted his federal claims in state court
pursuant to an independent and adequate state procedural rule, federal habeas
review of the claims is barred unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or
demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.
Id. at 750. As a result of Coleman, unexhausted claims in a mixed petition are now dismissed as
procedurally barred. Fearance v. Scott, 56 F.3d 633, 642 (5th Cir. 1995); see also Finley v.

'V

3

3

I

Johnson, 243 F.3d 215, 220 (5th Cir. 2001) (same). Such unexhausted claims would be
procedurally barred because if a petitioner, attempted to exhaust them in state court they would be
barred by Texas’ abuse-of-the-writ rules. Fearance, 56 F.3d at 642.
The procedural bar may be overcome by demonstrating either cause and prejudice for the

7
1

■i

default or that a fundamental miscarriage of justice would result from the court’s refusal to
consider the claim. Fearance, 56 F.3d at 642 (citing Coleman, 501 U.S. at 750-51). In the present
case, Wilson’s Claims 2, 3, and 4 are procedurally barred because federal habeas review of a claim
is procedurally barred if the last state court to consider the claim expressly and unambiguously
based its denial of relief on a state procedural default. See Coleman, 501 U.S. at 750-51; Amos v.
Scott, 61 F.3d 333, 338 (5th Cir.), cert, denied, 516 U.S. 105 (1995).

H
i

In his reply (Dkt. #22), Wilson failed to overcome the procedural default by showing cause

:

and prejudice or that a fundamental miscarriage of justice would occur by the Court’s refusal to

■i
'i
*1
'.i

J
8

1

.5

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 9 of 13 PagelD #: 938

UUllfc

iderthexlaimrTheT5ourt7thereforerreeommendsthat-WdsenTs-Glairns2,-3.,.and-4.-shoukLthus

be dismissed as unexhausted and procedurally barred.
2. Fourth Amendment challenge to search and seizure—Claim 1
In Claim 1 of his federal habeas petition, Wilson complains that the police took his blood
without his consent, a search warrant, or a court order in violation of the Fourth Amendment. He
also complains that his vehicle was searched without his consent, a search warrant, or a court order
in violation of the Fourth Amendment. As demonstrated in his state writ application, Wilson did
generally exhaust this Fourth Amendment challenge. However, Wilson’s Fourth Amendment
claim is not cognizable on federal habeas review.
In Stone v. Powell, 428 U.S. 465, 494 (1976), the Supreme Court stated: “where the state
has provided an opportunity for full and fair litigation of a Fourth Amendment claim, a state
prisoner may not be granted federal habeas corpus relief on the ground that evidence obtained in
an unconstitutional search or seizure was introduced at his trial.” Where the state provides an
opportunity for a full and fair hearing on the Fourth Amendment question, federal law precludes
habeas corpus consideration whether the defendant avails himself of the opportunity or not. Caver
v. Alabama, 577 F.2d 1188, 1193 (5th Cir. 1978).
Under Texas law, a defendant has the opportunity to challenge his arrest and subsequent
search and seizure of his property at the time of his state trial. See Tex. Code Crim. Proc. Art.
1.06, 14.01 -.06, 15.01 -.26, 16.17, and 38.23. Wilson neither alleges nor proves that he was
deprived of that opportunity by the State. Wilson had the opportunity to raise the Fourth
Amendment claims at trial, bn appeal, and in his state habeas application. That he was unsuccessful
when he actually raised this claim does not now entitle him to litigate the claim in federal court.

9

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 10 of 13 PagelD #: 939

Wilson’s Fourth Amendment challenge (Claim 1) should be denied as not cognizable on federal
habeas review.
3. Actual innocence claim is not cognizable—Claim 5
t

Wilson asserts that he is actually innocent of the criminal charges because he has become
a productive member of society, he worked hard every day, and he did not deserve the sentence of
sixty years imprisonment. (Dkt. #1, p. 7). He also asserts that he did not do anything wrong. {Id.).
A stand-alone claim of actual innocence is not an independent ground for federal habeas
corpus relief. Herrera v. Collins, 506 U.S. 390, 404-05 (1993). The Supreme Court reaffirmed in
McQuiggin v. Perkins, 569 U.S. 383, 386 (2013), that it has not yet resolved whether a prisoner
may be entitled to habeas corpus relief based on a freestanding claim of actual innocence. The
Fifth Circuit, however, does not recognize freestanding claims of actual innocence. See United
States v. Shepherd, 880 F.3d 734, 740 (5th Cir. 2018); Coleman v. Thaler, 716 F.3d 895, 908 (5th
Cir. 2013). Wilson has not shown any Supreme Court or Fifth Circuit authority recognizing a
freestanding claim of actual innocence; thus, he has not shown a basis for relief using this
argument. To the extent Wilson raises actual innocence as a free-standing claim for relief, such
claim is without merit.
Actual innocence means that the person did not commit the crime, while legal innocence
arises when a constitutional violation by itself would require reversal. Morris v. Dretke, 90 F.
App’x 62, 2004 WL 49095 (5th Cir. Jan. 6, 2004) (unpublished) {citing Sawyer v. Whitley, 505
U.S. 333, 339 (1992)). “Actual innocence means ‘factual innocence and not mere legal
insufficiency.’” United States v. Jones, 172 F.3d 381, 384 (5th Cir. 1999) (quoting Bousley v.
United States, 523 U.S. 614, 623 (1998)). In Morris, the Fifth Circuit observed that “because
10

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 11 of 13 PagelD #: 940

MuTrisTsmot^rguin'gthathewasmotthe^erson-who-committed-the-crime;-the-actual-innocenceexception is not available to him, and because he has not shown a constitutional violation or error,
the legal innocence option is not available to him either.” Morris, 90 F. App’x at *7.
Here, Wilson’s conclusory statement that he did not do anything wrong is insufficient to
establish either factual or legal innocence. Furthermore, he did not attach any new, reliable
evidence that supports his conclusion that he is factually innocent of the charges against him. See
Schlup v. Delo, 513 U.S. 298, 324 (1995). To the extent that Wilson is arguing that the blood draw
should have been suppressed, his actual innocence claim fails because he is arguing the legal
sufficiency of the evidence rather than presenting new, reliable evidence of his factual innocence.
See Jones, 172 F.3d at 384. His actual innocence claim is without merit and is wholly conclusory.
Wilson’s Claim 5 should be denied as not cognizable on federal habeas review.
Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 111 (2017).
Instead, under 28 U.S.C. § 2253(c)(1), he must first obtain a certificate of appealability (“COA”)
from a circuit justice or judge. Id. Although Wilson has not yet filed a notice of appeal, the court
may address whether he would be entitled to a certificate of appealability. See Alexander v.
Johnson, 211 F.3d 895, 898 (5th Cir. 2000) (A district court may sua sponte rule on a certificate
of appealability because “the district court that denies a petitioner relief is in the best position to
determine whether the petitioner has made a substantial showing of a denial of a constitutional
right on the issues before the court. Further briefing and argument on the very issues the court has
just ruled on would be repetitious.”).
11

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 12 of 13 PagelD #: 941

A certificate of appealability may issue only if a petitioner has made a substantial showing
of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution
of his constitutional claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The
Supreme Court recently emphasized that the COA inquiry “is not coextensive with merits analysis”
and “should be decided without ‘full consideration of the factual or legal bases adduced in support
of the claims.’” Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[w]hen
the district court denied relief on procedural grounds, the petitioner seeking a COA must further
show that ‘jurists of reason would find it debatable whether the district court was correct in its
procedural ruling.’” Rhoades v. Davis, 852 F.3d 422, 427 (5th Cir. 2017) (quoting Gonzalez v.
Thaler, 565 U.S. 134, 140-41 (2012)).
In this case, reasonable jurists could neither debate the denial of Wilson’s section 2254
petition on substantive or procedural grounds, nor find that the issues presented are adequate to
deserve encouragement to proceed. Accordingly, it is respectfully recommended that the Court
find that Wilson is not entitled to a certificate of appealability as to any of his claims.
Recommendation
It is accordingly recommended that the above-styled petition for writ of habeas corpus be
denied and the case be dismissed with prejudice. A certificate of appealability should be denied.
Within fourteen (14) days after receipt of the Magistrate Judge’s Report, any party may
serve and file written objections to the findings and recommendations contained in the Report.

12

Case 6:18-cv-00492-RAS-JDL Document 23 Filed 04/21/20 Page 13 of 13 PagelD #: 942

-A—par-ty-^s—failure—to—file—written_objections to the findings, conclusions and
recommendations contained in this Report within fourteen days after being served with a copy
shall bar that party from de novo review by the district judge of those findings, conclusions and
recommendations and, except on grounds of plain error, from appellate review of unobjected-to
factual findings and legal conclusions accepted and adopted by the district court. Douglass v.
United Servs. Auto. Ass’n, 79 F.3d 1415, 1430 (5th Cir. 1996) (en banc), superseded by statute on
other grounds, 28 U.S.C. § 636(b)(1) (extending the time to file objections from ten to fourteen
days).

So ORDERED and SIGNED this 21st day of April, 2020.

UNITED STATES MAGISTRATE JUDGE

13

Additional material
from this filing is
available in the
Clerk's Office.

